Case: 19-35730, 11 /03/2020, ID: 11879910, DktEntry: 45-1, Page 1 of 4
Case 4:18-cv-00ll5-BMM-JTJ Document 83 Filed 11/03/25 Page 1 of 4

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

NOV 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

GENET MCCANN,

No.

Plaintiff-Appellant,

19-35730

D.C. No.
4:18-cv-00115 -BMM-JTJ

Y.

WARD E. TALEFF, of the Commission
on Practice, in his official and individual
capacity; et al.,

MEMORANDUM*

Defendants-Appellees.

Appeal from the United States District Court
for the District of Montana
Brian M. Morris, District Judge, Presiding
Submitted October 30, 2020 **
Before: TROTT, SILVERMAN, and N.R. SMITH, Circuit Judges
Genet McCann appeals the judgment entered in favor of the defendants in
her civil rights lawsuit and the vexatious litigant order entered by the district court.
We have jurisdiction pursuant to 28 U.S.C. § 1291. We review the Rule 12(b)(6)
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 19-35730, 11/03/2020, ID: 11879910, DktEntry: 45-1. Page 2 of 4
Case 4:18-cv-00ll5-BMM-JTJ Document 83 Filed Il/03/2t> Page 2 of 4

dismissal de novo and denial of leave to amend for an abuse of discretion. Curry v.
Yelp Inc., 875 F.3d 1219, 1224 (9th Cir. 2017). We review the district court’s
vexatious litigant order for an abuse of discretion. Ringgold-Lockhart v. Cnty. of
Los Angeles, 761 F.3d 1057, 1062 (9th Cir. 2014). We affirm.
The district court properly took judicial notice of the previous lawsuits in
state and federal court. Harris v. Cnty. of Orange, 682 F.3d 1126, 1132 (9th Cir.
2012) (holding that the court make take judicial notice of documents filed in
federal or state courts or referenced in the complaint).
We apply state preclusion law to determine whether federal claims are
barred by state court judgments. Thornton v. City of St. Helens, 425 F.3d 1158,
1165 (9th Cir. 2005). Claims preclusion bars the claims against Paul Jr., Sheila,
and William McCann, Wold, Parker, and Rogers. The claims in this case arise out
of the same events and either were or could have been brought in McCann v.
McCann, 425 P.3d 682, 686-91 (Mont. 2018) (McCann 10). Reisbeckv. Farmers
Ins. Exch., 467 P.3d 557, 561 (Mont. 2020) (setting forth the elements of claims
preclusion); Tafflin v. Levitt, 493 U.S. 455,460 (1990) (holding that state courts
have concurrent jurisdiction over RICO claims); Felder v. Casey, 487 U.S. 131,
139 (1988) (noting that state courts have concurrent jurisdiction over civil rights
claims).
2

Case: 19-35730, 11/03/2020, ID: 11879910, DktEntry: 45-1 .Page 3 of 4
Case 4:18-cv-00ll5-BMM-JTJ Document 83 Filed 11/03/20 Page 3 of 4

Issue preclusion bars the claims against Emerson and James because Ann
Marie’s travel was litigated in the state guardianship proceedings. Reisbeck, 467
P.3d at 561 (setting forth the elements of issue preclusion); In reA.M.M., 380 P.3d
736 (Mont. 2016).
Judge Manley had absolute immunity for his authorized judicial acts of
appointing the guardian and co-conservators, quashing subpoenas, and entering
other orders in the state court proceedings. Ashelman v. Pope, 793 F.2d 1072,
1075-76, 1078 (9th Cir. 1986) (en banc). Similarly, Judge Manley’s judicial
assistant, Wold-McCauley, had quasi-judicial immunity. Id.; Mullis v. U.S. Bankr.
Ct. for Dist. ofNev., 828 F.2d 1385, 1390 (9th Cir. 1987).
Wold, Emerson, and Paul McCann, Jr. are entitled to quasi-judicial
immunity for their actions taken as the court-appointed guardian and co­
conservators in the state guardianship proceedings. In re Castillo, 297 F.3d 940,
947-48 (9th Cir. 2002); Mosher v. Saalfeld, 589 F.2d 438, 442 (9th Cir. 1978).
The individual capacity claims against Cotter, Moog, Taleff, and Axelberg
for their actions in the state bar disciplinary proceedings are barred by quasi­
judicial immunity. Hirsh v. Justices of the Sup. Ct. of Cal., 61 F.3d 708, 715 (9th
Cir. 1995); In re McCann, 421 P.3d 265, 268 (Mont. 2018) (holding that the Office
of Disciplinary Counsel and Montana Commission on Practice acted within the
3

EXHIBIT 2
Dec. 11, 2020 Order
(Dkt. 48)

Case: 19-35730, 12/11/2020, ID: 11923904, DktEntry: 48, Page 1 of 1

FILED
DECT! 2020' “

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

GENET MCCANN,
Plaintiff-Appellant,
v.

WARD E. TALEFF, of the Commission
on Practice, in his official and individual
capacity; et al.,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-35730

D.C. No.
4:18-cv-OO 115 -BMM-JTJ
District of Montana,
Great Falls
ORDER

Defendants-Appellees.

Before: TROTT, SILVERMAN, and N.R. SMITH, Circuit Judges.
The panel has recommended denial of the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no active
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35. The petition for rehearing en banc is DENIED.

C^4;l-©e&5(7®CL®^^Q?9, IBb6dGii0rt$h

pP%%4 f>kf §1

IN THE UNITED STATES DISTRICT COURT
---- FOR-THEDISTRICT-GFMONTANA------GREAT FALLS DIVISION

FILED
Apr-il-24r204-9—
Clerk, U.S. District Court
District of Montana
Great FaHsOrviston

GENET McCANN,
Plaintiff,

CV 18-115-GF-BMM-JTJ

vs,
WARD TALEFF, et al.,

FINDINGS AND
RECOMMENDATIONS

Defendants.
INTRODUCTION
This lawsuit has its genesis in a family dispute. Plaintiff Genet McCann
(McCann) alleges that three of her siblings have conspired to exert unlawful
control over cash that belongs to family-owned corporations. The family dispute
has been the subject of extensive litigation in state court. McCann has participated
in numerous state court proceedings in either her personal capacity, or as legal
counsel for one of her siblings. McCann’s litigation efforts in state court have
been unsuccessful. The Montana Supreme Court has disbarred McCann as a
lawyer, declared McCann a vexatious litigant, and prohibited McCann from filing
any further lawsuits in a state court without prior approval.
The present lawsuit represents McCann’s effort to litigate the family dispute
in federal court. The named Defendants include: the state district court judge who
presided Qvertheguar_dianship.and_conservatorship-proceedings-for-Mc€ann-s----

CaBasfcl39e9®ffiQl, l©6ddi^W£& W&g>tM^#l19 pPaf£3>t#§l
Paul Sr.’s estate was probated in Montana Twentieth Judicial District Gourtr Lake County. Montana District Court Judge James A. Manley (Judge Manley)
presided over the probate proceeding. Judge Manley's judicial assistant was
Chantel Wold-McCauley (Wold-McCauley).
At the time of Paul Sr.’s death, Ann Marie was of advanced age. Ann Marie
suffered from Alzheimer’s type dementia. Her children agreed that she needed the
assistance of a guardian and conservator due to her diminished capacity. A
dispute arose, however, as to who should serve as guardian and conservator for
Ann Marie. Timothy, with McCann as his lawyer, filed a petition with the state
court requesting that he be appointed guardian and conservator. Paul Jr., Sheila
and William filed a petition requesting that Paul Jr. be appointed guardian and
conservator. Judge Manley appointed three co-conservators: Paul Jr., Timothy
and attorney Doug Wold (Wold). Timothy later resigned, leaving Wold and Paul
Jr. as Ann Marie’s co-conservators.
Judge Manley appointed attorney Casey Emerson (Emerson) as Ann Marie’s
guardian. Emerson, in turn, hired Amanda James (James) of Comfort Keepers to
provide in-home care services for Ann Marie.
McCann opposed the appointment of Emerson as guardian, and she opposed
the appointment of Paul Jr. and Wold as co-conservators. McCann challenged the
-3-

CaCsas^:lB9c395®DL®^W9?0, l©oddi$i@M%& QHt&S>t!My2#d9 Ppa|e^4>t)^l

____ guardian and conservator.appointments, personally and as counsel for Timothy^
McCann opposed the appointments in state district court and in three appeals to
the Montana Supreme Court. In re Guardianship & Conservatorship ofA.M.M.,
356 P.3d 474 (Mont. 2015) {McCann 1); In re Guardianship & Conservatorship
of A.M.M., 380 P.3d 736 (Mont. 2016) {McCann 2); and In re Guardianship &
Conservatorship ofA.M.M,!, 403 P.3d 1254 (Mont. 2017) {McCann 4). All of
McCann’s challenges were unsuccessful.
McCann was accused of professional misconduct based upon her activities
as legal counsel for Timothy in the guardianship and conservatorship proceedings.
The Office of Disciplinary Counsel (ODC) investigated the matter. The ODC
filed two disciplinary complaints against McCann with the Commission on
Practice in Causes PR 16-0635 and PR 17-0670. Attorney Mike Cotter (Cotter)
was the Chief Disciplinary Counsel for the ODC. Attorney Jon Moog (Moog) was
the Deputy Disciplinary Counsel for the ODC.
The Montana Commission on Practice reviewed and considered the
disciplinary complaints filed by the ODC. Attorney Ward Taleff (Taleff) was the
Chairman of the Commission on Practice. Attorney Tracy Axelberg (Axelberg)
was the Vice-Chairman of the Commission on Practice. The Commission on

-4-

CaBas*189e8a3^©4Bf03$020,

pPa|^5>fcf§l

Practice recommended that McCannbe^suspended in cause PR 17-0670,and
disbarred in cause PR 16-0635.
The Montana Supreme Court adopted the recommendations of the
Commission on Practice. In re McCann, 421 P.3d 265 (Mont. 2018) (McCann 7);
In re McCann, No. PR 16-0635, Order (Mont. June 6, 2018) {McCann 3). The
Montana Supreme Court disbarred McCann effective July 5,2018. In re McCann,
No. PR 16-0635, Order at 6.
McCann attempted to challenge the disciplinary proceedings in four federal
lawsuits: In re McCann, No. CV 18-02-H-SEH (D. Mont. Jan. 11, 2018)
(McCann 5); In re McCann, No. CV 18-03-H-SEH (D. Mont. Jan. 11, 2018)
{McCann 6); McCann v. Supreme Court of Montana, No. CV 18-42-H-SEH (D.
Mont. June 11,2018) {McCann 8); and McCann v. Supreme Court ofMontana,
No. CV 18-57-H-SEH (D. Mont. June 11, 2018) (McCann 9). All of the federal
lawsuits were dismissed for lack of jurisdiction.
McCann filed a lawsuit in the Montana Thirteenth Judicial District Court,
Yellowstone County, in September of 2014, seeking a forced dissolution of the
family corporations based on allegations of corporate oppression under Mont.
Code Ann. § 35-1-938(2). See McCann v. McCann, 425 P.3d 682, 686 (Mont.
2018) {McCann 10). The named Defendants in that lawsuit included 18 family

-5-

Cc(§esfem83mM8l$$$?0,

IWSPtW7^ll9 PpS|#0>f)P§i

___corporations, McCann’s siblings Sheila and Paul,Jr., and.attomey Wold.. Sheila,
and Paul Jr. were represented by attorney Mark Parker (Parker). Wold was
represented by attorney Guy Rogers (Rogers).
The district court ruled in favor of the Defendants following a bench trial.
McCann Appealed. The Montana Supreme Court affirmed the district court’s
decision on August 28,2018. McCann, 425 P.3d at 694. The Court determined
that McCann was a vexatious litigant. The Court prohibited McCann from filing
any further pleadings with a Montana state court absent prior approval of the
court. Id.
A.

The Present Action

McCann filed the present action on September 4, 2018, just seven days after
the Montana Supreme Court had declared her a vexatious litigant. McCann
alleges that Sheila, Paul, Jr. and William have conspired to exert unlawful control
over approximately $45 million dollars in cash that belongs to the family
corporations. (Doc. 1 at 3).
McCann alleges that Judge Manley, judicial assistant Wold-McCauley,
attorney Emerson, attorney Wold, and care giver James, joined the conspiracy by
participating in Ann Marie’s guardianship and conservatorship proceedings in
state court.
-6-

CQaeel:lQ-dfrWXMmMQm I
--------McCann alleges that.attomeys.CotteE, Moog,-Xale£f and.Axelberg, joined_
the conspiracy by participating in the state disciplinary proceedings that resulted
in her disbarment as a lawyer.
McCann alleges that attorney Parker and attorney Rogers joined the
conspiracy by assisting Sheila and Paul, Jr. with legal matters related to the family
corporations, and by representing persons who she had sued in McCann 10. (Doc.
1 at 37). Parker represented Sheila and Paul, Jr. in McCann 10. Rogers
represented attorney Wold in McCann 10.
McCann asserts federal claims against the Defendants under 42 U.S.C.
§ 1983, 42 U.S.C. § 1985, and the Racketeer Influenced and Corrupt
Organizations Act (RICO), 18 U.S.C. § 1962. McCann also asserts state law
claims against the Defendants for wrongful conversion and constructive fraud.
McCann seeks monetary relief in the form of compensatory damages, treble
damages and punitive damages. (Doc. 1 at 41). McCann also seeks injunctive
relief. McCann seeks an order directing the Commission on Practice to reinstate
her license to practice law. McCann seeks an order terminating the guardianship
and conservatorship appointments made by the state district court, and McCann
seeks a forced dissolution of the family corporations. (Doc. 1 at 40-42).

-7-

CSaset;

I Q}dblffi@ri£63 DBfe# w/JMsP^yaPfcGfc.

“■ —Counts 3, 4 and 5 of McCann’s Complaintassertcriminal chargesagainst_
the Defendants for mail fraud, obstruction ofjustice, and wire fraud. McCann
conceded, during the hearing on March 12, 2019, that Counts 3, 4 and 5 should be
dismissed. McCann agreed that she lacks standing to bring criminal charges
against the Defendants.
MOTIONS TO DISMISS
Defendants have moved to dismiss all of McCann’s claims under
Rule 12(b)(1) and Rule 12(b)(6) of the Federal Rules of Civil Procedure.
A.

Rule 12(bim Standard

Federal Rule of Civil Procedure 12(b)(1) authorizes a court to dismiss
claims over which it lacks subject matter jurisdiction. Safe Air for Everyone v.
Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). When evaluating a Rule 12(b)(1)
motion, the court must accept all material factual allegations in the complaint as
true. Wolfe v. Strankman, 392 F.3d 358,362 (9th Cir. 2004). The court may
disregard legal conclusions that the plaintiff has cast in the form of factual
allegations. Doe v. Holy See, 557 F.3d 1066, 1073 (9th Cir. 2009).
B.

Rule..12(b)(6) Standard

A motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil
Procedure tests the legal sufficiency of a complaint. Navarro v. Block, 250 F.3d

-8-

729, 732 (9th Cir. 2001)._The complaint must set forth.sufficient.factual matter
“to state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 678-79 (2009). A claim is plausible on its face when “the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. at 678. Factual allegations
that only permit the court to infer “the mere possibility of misconduct” are not
sufficient. Id. at 679. Dismissal is appropriate under Rule 12(b)(6) if the
complaint “lacks a cognizable legal theory or sufficient facts to support a
cognizable legal theoiy.” Mendiondov. Centinela Hospital Med. Ctr., 521 F.3d
1097, 1104 (9th Cir. 2008).
When evaluating a Rule 12(b)(6) motion, the court must accept all
allegations of material fact contained in the complaint as true. Johnson v. Lucent
Technologies Inc., 653 F.3d 1000,1010 (9th Cir. 2011). Matters outside of the
pleadings are generally not considered by the court. Lee v. City ofLos Angeles,
250 F.3d 668, 688 (9th Cir. 2001). The court may consider, however, undisputed
matters of public record such as “documents on file in federal or state courts.”
Harris v. County of Orange, 682 F.3d 1126, 1132 (9th Cir. 2012). Here, the Court
has taken judicial notice of the ten prior state and federal proceedings referred to
above as McCann 1 through McCann 10.
-9-

C£aEB4:l9e96(Klffii94ffiAi^Q9Q>

C.

Qkfl§0tQ4/2&39 pP®§d3.@f(#§l

Claims Against Sheila McCann. Paul McCann. Jr.. William ___
McCann* Mark Parker and Guy Rogers

McCann has asserted claims for monetary relief against her siblings Sheila,
Paul Jr, and William, and attorneys Parker and Rogers. McCann alleges that
Sheila, Paul Jr. and William have conspired to exert unlawful control over cash
that belongs to the family corporations. (Doc. 1 at 3). McCann alleges that Parker
and Rogers assisted Sheila, Paul, Jr. and William by participating in “illegal
meetings” related to the family corporations, and by “fraudulently reporting]
trusts in JMC [Inc.] as loans, to the detriment of stockholders . .. when [they]
knew that they were not loans.” (Doc. 1 at 28, 37).
Defendants argue that all of McCann’s claims are barred by doctrine of res
judicata. Defendants argue that the doctrine of res judicata operates to bar the
claims because McCann could have asserted the claims in the state court action
referred to above as McCann 10.
The doctrine of res judicata, also known as claim preclusion, bars a party
from re-litigating claims that were raised or could have been raised in a prior
action. Owens v. Kaiser Foundation Health Plan, Inc., 244 F.3d 708, 713 (9th
Cir. 2001); Wiser v. Montana Bd. of Dentistry, 251 P.3d 675, 676 (Mont. 2011).
The doctrine of res judicata is premised on the policy that there must be some end

-10-

qHiatO*/*«ri9P«fc44rt#%i
.to the litigation. Wiser, 251 P.3d at 676,. Res judicata deters “plaintiffs from
splitting a single cause of action into more than one lawsuit.” Asarco LLC v.
Atlantic Richfield Co369 P.3d 1019,1023 (Mont. 2016).
When considering the preclusive effect of a state court judgment, federal
courts must apply the res judicata law of the state from which the state court
judgment emerged. Adams Brothers Farming, Inc. v. County ofSanta Barbara,
604 F.3d 1142, 1148 (9th Cir. 2010). This Court must therefore look to Montana
law to determine whether the state court judgment in McCann 10 operates to bar
the claims that McCann asserts here. See Migra v. Warren City School Dist. Bd.
ofEducation, 465 U.S. 75, 81 (1984).
Montana’s res judicata doctrine has five elements:
1.

The parties or their privies must be the same in the first and second
actions;

2.

The subject matter of the actions must be the same;

3.

The issues must be the same in both actions, or they must be issues
that could have been raised in the first action, and they must relate to
the same subject matter;

4.

The capacities of the parties in both actions must be the same in
reference to the subject matter and the issues raised in the actions;
and

5.

The first action must have ended with a final judgment on the merits.

-11-

Cfi*sfcit0d35g^!p#Rfltfpg?9.

CWi0l<!M/2#ll9 Pp9g^t2>fcP§i

Brilz v. Metropolitan General Ins..Co.y 285 P.3d_494, 501 (Mont. 20J2).__
a.

Same Parties or Privies to Parties

The first element of res judicata is met if the parties in the second action are
named parties in the first action, or they are privies to parties named in the first
action. Brilz, 285 P.3d at 501. For purposes of res judicata, privies are persons
whose interests have been legally represented by a litigant in a prior lawsuit.
Warns ley v. Nodak Mutual Ins. Co., 178 P.3d 102,114 (Mont. 2008); Holtman v.
4-G’s Plumbing & Heating, Inc., 872 P.2d 318, 321 (Mont. 1994).
Here, all of the Defendants in this lawsuit are either parties in McCann 10 or
they are privies with persons or entities who were parties in McCann 10. Sheila
McCann and Paul Jr. McCann were parties in McCann 10. William McCann is a
privy with his siblings Sheila and Paul, Jr. as they share the same interests as
officers, directors and shareholders of the family corporations. William is also a
privy with the corporate defendants named in McCann 10 given his status as a
shareholder. See Braultv. Smith, 679 P.2d 236, 239 (Mont. 1984) (shareholders in
closely-held corporations are in privity with the corporation). Attorney Parker is a
privy with Sheila, Paul Jr. given that he was their attorney in McCann 10.
Lawyers are privies with their clients for purposes of res judicata. See Flock v. JP
Morgan Chase Bank, N.A., 2015 WL 1279407, at *6 (W.D. Tenn. Mar. 20, 2015);
-12-

Pmcusy,_Law_Offices_o/Erskine &Fleisher, 2010WL 286790,. at _*2.n. 1 (S.D
Fla. Jan. 19, 2010) (collecting cases). Attorney Rogers is similarly a privy with
McCann 10 defendant Doug Wold given that he was Wold’s attorney.
b.

Same Subject Matter

The second element requires that the subject matter be the same in both
actions. Here, both cases arise from the same family dispute.
c.

Same Issues Relating to the Same Subject Matter

The third element requires that the issues in the second action are the same
as the issues in the first action, or are issues that could have been raised in the first
action, and relate to the same subject matter. The third element requires that the
issues in the first and second action arise from “a common nucleus of operative
facts.” Ziolkowski v. Johnson, Rodenburg & Lauinger, PLLP, 2013 WL 1291615,
at *7 (D. Mont. Mar. 27, 2013) (quoting Brih, 285 P.3d at 502).
Both McCann 10 and this action arise out of a common nucleus of operative
facts. McCann’s alleges here, as she did in McCann 10, that the Defendants have
engaged in illegal, oppressive and fraudulent conduct with respect to the family
corporations. McCann has alleged mismanagement of corporate records and mail
fraud in both cases. McCann seeks the same relief here as she did in McCann 10.

-13-

pP^I$W>§l
McCanrLsedksafprced dissp]utionj)fthefamily. corporations,_(Doc.„l_.at_40j42).
The third element of res judicata is therefore satisfied.
To the extent McCann’s Complaint in this case alleges federal civil rights
claims and federal RICO claims she did not raise in McCann 10, the third element
of res judicata is nevertheless met because those claims also arise from the same
common nucleus of operative facts, and McCann could have asserted the claims in
McCann 10. State courts possess concurrent jurisdiction over federal civil rights
claims and federal RICO claims. See Felder v. Casey, 487 U.S. 131, 139 (1988);
Tafflin v. Levitt, 493 U.S. 455,460 (1990).
d.

Capacities of the Parties are the Same

The fourth element requires that the capacities of the parties be the same in
the first and second actions. This element is also satisfied. McCann has sued the
Defendants in her individual capacity as a shareholder of the family corporations,
just as she did in McCann 10. McCann has asserted claims against the Defendants
in both their individual and official capacities, just as she did in McCann 10.
e.

Final Judgment on the Merits

The fifth element of res judicata requires that the first action conclude with
a final judgment on the merits. The fifth element is also satisfied here. The state
district court entered a final judgment on the merits in McCann 10, and the
-14-

lBo(M6iiP4%'b PmifliO«/i^i!9
Montana Supreme_Coiirt.afFirrnedjthe]udgiiient._See.McCaMn_v._iWcCa«M,A25
P.3d at 694. McCann’s claims against Sheila, Paul, Jr., and William McCann, and
attorneys Parker and Rogers are barred by the doctrine of res judicata.
D.

Claims Against Cotter. Moog. Taleff and Axelberg

McCann has asserted claims for monetary relief against Defendants Cotter,
Moog, Taleff and Axelberg based upon their participation in the disciplinary
proceedings that resulted in her disbarment as a lawyer. McCann has sued Cotter,
Moog, Taleff and Axelberg in both their official and individual capacities.
a.

Official-Capacity Claims for monetary relief

An official-capacity suit for money damages represents “another way of
pleading an action against the entity of which an officer is an agent.” Kentucky v.
Graham, 473 U.S, 159, 165-66 (1985). The 01X1 and the Commission on Practice
operate as agencies of the State of Montana. See Rothstein v. Montana State
Supreme Court, 638 F. Supp. 1311,1312 (D. Mont. 1986). The claims for
monetary damages against Cotter, Moog, Taleff and Axelberg, in their official
capacities, are therefore claims against the State of Montana. Shaw v. State of Cal
Dept, of Alcoholic Beverage Control, 788 F.2d 600, 604 (9th Cir. 1986).
The Eleventh Amendment bars a plaintiff from suing a state in federal court
for monetary damages. Hirsh v. Justices ofthe Supreme Court of California, 67
-15-

c^Sas«itRc9^®ei!P^fiWP9?9.

pPa§<^#k£§i

.F.3d-708,7-15-(9th-CLr._1995)._The_Eleventh-Amendmentlsimmunity^extends.to__
official-capacity claims against agents of a state. Id. The official-capacity claims
against Cotter, Moog, Taleff and Axelberg for monetary damages are barred by the
Eleventh Amendment.
b.

Individual-Capacity Claims for monetary relief

An individual-capacity suit for money damages “seekfs] to impose personal
liability upon a government official for actions he takes under color of state law.”
Community House, Inc. v. City ofBoise, Idaho, 623 F.3d 945, 966 (9th Cir. 2010).
Moog and Cotter acted as prosecutorial counsel in all of McCann’s disciplinary
proceedings. Axelberg and Taleff served as Chairpersons of the Commission on
Practice that recommended McCann’s disbarment. All of the claims against
Moog, Cotter, Axelberg and Taleff are based on acts the Defendants undertook in
the performance of their official duties in disciplinary proceedings.
Administrative law judges and attorneys who prosecute lawyers in
disciplinary proceedings are entitled to quasi-judicial immunity from individualcapacity claims brought against them based upon their actions in disciplinary
proceedings. Hirsh, 67 F.3d at 715; Clark v. State of Washington, 366 F.2d 678,
681 (9th Cir. 1966); Wu v. State Bar of California, 953 F. Supp. 315,319-20 (C.D.
Cal. 1997). Moog, Cotter, Axelberg and Taleff are entitled to immunity. The
-16-

Pw&&.fM%i
individual-capacity claimsagainst .Cotter,.Moog,_Taleff.and Axelberg for
monetary damages should be dismissed.
E.

Claims Against Judge Manley

McCann has asserted claims for monetary relief against Judge Manley.
Judge Manley presided over Paul Sr.’s probate proceeding as well as Ann Marie’s
guardianship and conservatorship proceedings. Judge Manley argues that he is
immune from liability.
Judges enjoy absolute immunity from damage liability for judicial acts
performed within the jurisdiction of their court. Ashelman v. Pope, 793 F.2d 1072,
1075 (9th Cir, 1986). A judge is stripped of this immunity only when: 1) the judge
acts in the clear absence of all jurisdiction; or 2) the judge performs an act that is
not judicial in nature. Id.
To determine whether a given action is judicial in nature, courts focus on:
1) whether the act is a normal judicial function; 2) whether the act occurred in the
courtroom; 3) whether the controversy centered around a case that was pending
before the judge; and 4) whether the act at issue arose directly out of a
confrontation with the judge in his official capacity. Id.
Here, it is clear that Judge Manley was vested with jurisdiction to preside
over Paul Sr.’s probate, and Ann Marie’s guardianship and conservatorship
-17-

c£^itfo^<^$#RWP9¥§.

PP%%£\®\$%1

proceedings. See Mont. Code Ann. §§ 3-5-302(b), 72-5-405. All of the acts by
Judge Manley, of which McCann complains, were judicial in nature. Judge
Manley was performing normal judicial functions when he appointed Ann Marie’s
guardian and co-conservators, quashed McCann’s subpoenas, and sanctioned
McCann for her professional misconduct. Judge Manley is therefore immune from
liability. McCann’s claims against Judge Manley should be dismissed.
F.

Claims Against Wold-McCaulev

McCann has asserted claims for monetary relief against Wold-McCauley.
Wold-McCauley was Judge Manley’s judicial assistant. Wold-McCauley argues
that she is immune from liability.
Court personnel enjoy quasi-judicial immunity for acts that are “integral to
the judicial process.” See e.g., Mullis v. US. Bankruptcy Court, Dist. ofNevada,
828 F.2d 1385, 1390 (9th Cir. 1987) (clerk of court vested with quasi-judicial
immunity); Sindram v. Suda, 986 F.2d 1459, 1460-61 (D.C. Cir. 1993) (quasi­
judicial immunity applies to acts of auxiliary court personnel that are part of their
judicial function); Kincaid v. Vail, 969 F.2d 594, 600-01 (7th Cir. 1992).
Here, McCann has failed to identify a single act that Wold-McCauley
allegedly undertook that was not integral to the judicial process. McCann alleges
that Wold-McCauley is liable as a co-conspirator merely because she is Judge
-18-

pP&%g%$>b$§i

Manley’s assistant. Wold-McCauley is entitled to immunity. McCann’s claims
against Wold-McCauley should be dismissed.
G.

Claims Against Emerson

McCann has asserted claims for monetary relief against Emerson. Emerson
was Ann Marie’s court-appointed guardian. McCann alleges that Emerson is
liable because she allowed Ann Marie to travel to California on January 6,2015,
knowing that the state court had scheduled a hearing relating to Ann Marie’s
guardianship for January 7,2015. (Doc. 1 at 18-20). Emerson argues that
McCann’s claims fail because she is immune from liability, and the claims are also
barred by the doctrine of collateral estoppel.
Court-appointed guardians perform quasi-judicial functions. See e.g., Smith
v. DSHS, 2010 WL 4483531, at *2 (W.D. Wash. Sept. 28, 2010); Fleming v.
Asbill, 42 F.3d 886, 889 (4th Cir. 1994). Court-appointed guardians enjoy
immunity for their quasi-judicial functions. See Dahl v. Charles F. Dahl, M.D.,
PC, 744 F.3d 623, 630 (10th Cir. 2014); Dornheim v. Shales, 430 F.3d 919, 925
(8th Cir. 2005); Hughes v. Long, 242 F.3d 121, 127 (3rd Cir. 2001). Emerson was
acting pursuant to court order and was functioning as an arm of the court when she
allowed Ann Marie to travel to California. Emerson is immune from liability.
Montana’s collateral estoppel doctrine, also known as issue preclusion,
-19-

C<£&34;r$e&5OTi

operates to bar a party from re-litigating issues that were raised or could have been
raised in a prior action. Baltrusch v. Baltrusch, 130 P.3d 1267, 1274 (Mont.
2006). Montana’s collateral estoppel doctrine applies if the following four
elements are satisfied:
1.

The issue raised in the present action must have been decided in a
prior action;

2.

A final judgment on the merits must have been issued in the prior
action;

3.

The party against whom collateral estoppel is now asserted was a
party or in privity with a party to the prior action; and

4.

The party against whom collateral estoppel is asserted must have been
afforded a full and fair opportunity to litigate the issue in the prior
action.

Baltrusch, 130 P.3d at 1274.
All four of the collateral estoppel elements are satisfied here. Emerson’s
decision to allow Ann Marie to travel to California was fully litigated in the state
court guardianship proceedings. The state district court determined that Ann
Marie’s presence at the hearing was not required. McCann was afforded a full
opportunity to challenge the ruling of the district court. McCann participated in
the state court guardianship proceedings both personally and as counsel for her
brother Timothy. McCann appealed the rulings of the district. The appeal was

-20-

p$%gW<$§i
unsuccessful. ITie Montana, Supreme_Court affirmed therulings.of.thestate_____
district court. See In re Guardianship o/A.MM., 380 P.3d at 737-743. The
claims against Emerson are barred by the doctrine of collateral estoppel.
H.

Claims Against Amanda James

McCann has asserted claims for monetary relief against James. James was
hired by Emerson to be Ann Marie’s care giver. James traveled with Ann Marie to
California on January 6, 2015, in her capacity as Ann Marie’s care giver. McCann
alleges that James, like Emerson, is liable because she allowed Ann Marie to travel
to California knowing that the state court had scheduled a hearing relating to Ann
Marie’s guardianship for January 7, 2015. (Doc. 1 at 18-19).
The claims against James are barred by the doctrine of collateral estoppel
for the same reasons stated above with respect to Emerson.
I.

Claims Against Wold

McCann has asserted claims for monetary relief against Wold. Wold was
one of Ann Marie’s court-appointed conservators. McCann alleges that Wold is
liable based on his conduct as co-conservator. Wold argues that he is immune
from liability.
Court-appointed conservators enjoy quasi-judicial immunity for actions
performed at the direction of the court. See Mosher v. Saalfeld, 589 F.2d 438, 442
-21-

__

(9th Cir. 1978). Wold is entitled to immunity. The claims against Wold shouldJbe
dismissed.
J.

Claims for In junctive Relief

McCann has asserted three claims for injunctive relief: McCann seeks an
order directing the Commission on Practice to reinstate her license to practice law;
McCann seeks an order terminating the guardianship and conservatorship
appointments made by the state court; and McCann seeks an order dissolving the
family corporations. (Doc. 1 at 40-42). Defendants argue that McCann’s claims
for equitable relief are barred by the Rooker-Feldman doctrine.
The Rooker-Feldman doctrine originated from two Supreme Court opinions:
Rooker v. Fidelity Trust Co263 U.S. 413 (1923), and District ofColumbia Court
of Appeals v. Feldman, 460 U.S. 462 (1983). The Rooker-Feldman doctrine holds
that a United States District court possesses no jurisdiction to review final
judgments of a state court. Feldman, 460 U.S, at 482. The Rooker-Feldman
doctrine applies if the following four criteria are satisfied:
1.

The plaintiff must have lost in the underlying state court proceeding;

2.

A final judgment must have been rendered in state court proceeding
before the federal lawsuit was filed;

3.

The plaintiff must complain that the state court judgment has caused
her to suffer injuries; and
-22-

4.— -The -plaintiffs complaint must -inv ite the federal court -to rev iew-and
reject the final judgment of the state court.
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005).
All four of Rooker-Feldman criteria are satisfied here. The first element is
satisfied because McCann lost in the state court guardianship proceedings. In re
Guardianship of

356 P.3d at 481; In re Guardianship ofA.M.M.. 380

P.3d at 738-746. McCann lost in the state disbarment proceeding, and McCann
lost in the state court lawsuit referred to as McCann 10 in which she sought a
forced dissolution of the family corporations. See In the Matter of Genet McCann,
Attorney at Law, No. P.R. 16-0635, Or. (Mont. 6, 2018); McCann v. McCann, 425
P.3d 682, 686 (Mont. 2018).
The second element is satisfied because final judgments were entered in all
of these state court proceedings before McCann filed her Complaint in this case.
The third element is satisfied because McCann alleges that she has suffered
injuries as a result of the adverse decisions she received in the state court
proceedings. McCann alleges that she has suffered “$5,370,000.00” in loss of
business and net-worth. (Doc. 1 at 41).
Finally, the fourth element is satisfied because the equitable relief that
McCann requests would require this Court to reject the final decisions of the

-23-

Montana- Supreme. Court wi th respectto .the - state -court-guardianship proceedings,
the state court disbarment proceeding, and the state court lawsuit referred to as
McCann 10.
McCann’s claims for injunctive relief are barred by the Rooker-Feldman
doctrine.
MOTIONS REQUESTING THAT McCANN BE DECLARED A
VEXATIOUS LITIGANT
All of the Defendants have moved for an order declaring McCann a
vexatious litigant. McCann opposes the motions.
Every citizen possesses a right of access to the courts that is protected under
the First Amendment to the United States Constitution. Christopher v. Harbury,
536 U.S. 403,415 (2002). Litigants are not permitted, however, to abuse the
judicial system by filing numerous actions that are either frivolous, or reflect a
pattern of harassment. De Long v. Hennessey, 912 F.2d 1144, 1148 (9th Cir.
1990). “Flagrant abuse of the judicial process cannot be tolerated because it
enables one person to preempt the use ofjudicial time that properly could be used
to consider the meritorious claims of other litigants.” Id.
The All Writs Act, 28 U.S.C. § 1651(a), provides district courts with the
inherent authority to stop abusive litigation by vexatious litigants by entering

-24-

1‘pre-filmg orders- that restriGt-the-litigant’-s ability-to file fiirther Jawsuits._M?/1s,^'_
v. Evergreen Dynasty Corp., 500 F.3d 1047, 1057 (9th Cir. 2007). When entering
a pre-filing order, the district court must:
1.

Give the litigant notice and an opportunity to be heard;

2.

Compile an adequate record for appellate review;

3.

Make substantive findings about the frivolous or harassing nature of
the litigant’s litigation history; and

4.

Tailor the order in a way that fits “the specific vice encountered.”

Ringgold-Lockhart v. County ofLos Angeles, 761 F.3d 1057, 1062 (9th Cir. 2014).
The latter two requirements are substantive requirements. They focus on
whether the litigant is vexatious, and whether a pre-filing order is warranted. Id.
The Ninth Circuit has identified five factors courts are to consider when making
these determinations. These five factors include;
1.

The litigant’s history of litigation and in particular whether it entailed
vexatious, harassing or duplicative lawsuits;

2.

The litigant’s motive in pursuing the present lawsuit;

3.

Whether the litigant is represented by counsel;

4.

Whether the litigant has caused needless expense to other parties or
has posed an unnecessary burden on the courts and their personnel;
and

-25-

5

Whether-sanctions-otherthan-a-pre-filing-order-would-be-adequate-to
protect the court and other parties.

Ringgold-Lockhart, 761 F.3d at 1062.
1.

Notice and Opportunity to Oppose a Pre-Filing Order

Due process requires that a district court give a litigant notice and an
opportunity to be heard before it issues an order restricting a litigant’s access to
the courts. Ringgold-Lockhart, 761 F.3d at 1062. An opportunity to be heard is
satisfied if the litigant is provided an opportunity to file a brief. Molski, 500 F.3d
at 1058.
Here, the Court has provided McCann with the required notice and an
opportunity to be heard. The Court issued an Order on January 29, 2019, advising
McCann of its intent to consider whether she was vexatious litigant based upon
her pattern of litigation conduct. (Doc. 53). The Court informed McCann that it
would conduct a hearing on the issue on March 12, 2019. Id. The Court gave
McCann an opportunity to submit a brief. McCann availed herself of that
opportunity. McCann filed a brief in opposition to Defendant’s motions on
December 12,2018. (Doc. 36). The Court conducted a hearing on March 12,
2019. (Doc.62). McCann presented oral argument at the hearing.

-26-

c£sg«iW^39i§^MM,J
2.

DW§0t6'4/iM9p‘?®gil(£9,<8%i

AdeauateRecord forReview

The court must make an adequate record for review on appeal. The court
must identify the prior litigation that leads the court to conclude that a pre-filing
order is warranted. Molski, 500 F.3d at 1059; De Long, 912 F.2d at 1147.
Here, McCann’s history of litigation includes ten vexatious, harassing, and
duplicative proceedings filed in both state court and federal court. These prior
legal proceedings are referred to as McCann 1 through McCann 10.
3.

Substantive Findings about the Frivolous or Harassing
Nature of Plaintiffs Litigation

The heart of the vexatious litigant analysis requires “substantive findings as
to the frivolous or harassing nature of the litigant’s actions.” Molski, 500 F.3d at
1059. The court may consider a variety of factors when determining whether a
litigant’s actions are frivolous or harassing. The court may consider the number
and content of the litigant’s filings. Id. The court may consider whether the
litigant’s filing are patently without merit, and whether the litigant’s filings allege
facts that are grossly exaggerated or totally false. Molski, 500 F.3d at 1059, 1061.
The court may also consider whether the litigant’s filings qualify as manipulative
or coercive litigation tactics. Id. at 1060.

-27-

-------McCann’s litigation history includes both-frivolous and duplicati ve -----litigation. McCann’s litigation history includes three appeals related to Ann
Marie’s guardianship and conservatorship proceedings, four frivolous attempts to
challenge her disbarment in federal court, and two lawsuits against the Montana
Supreme Court.
The Montana Supreme Court has declared McCann a vexatious litigant. See
McCann v. McCann, 425 P. 3d at 692-94. The Montana Commission on Practice
has entered extensive findings regarding McCann’s record of harassing litigation.
The Commission has stated that McCann:
is truly the poster child of not just a vexatious litigant,
but a vexatious lawyer, unwilling or unable to see the
outrageous nature of her conduct, both in the district
court and in these disciplinary proceedings. Ms.
McCann had numerous opportunities to correct or at
least mitigate her conduct. In each instance, she took
the approach of escalating the dispute by engaging in
unprofessional name-calling, accusatory statements of
bias, and relying on a hodgepodge of groundless claims
and unsupportable theories that failed to articulate a
coherent legal position.
McCann, 425 P. 3d at 693.
Here, McCann seeks to litigate issues that have been or could have been
resolved in McCann 10. McCann’s litigation conduct here has caused needless
expense to the parties in this case and has posed an unnecessary burden on the
-28-

_P°Hfk_ McCann’s allegationsjifacriminal.enterprise Jhatinvolvesasitting_____
Montana district court judge, quasi-judicial officials, and well-respected lawyers
is patently frivolous and harassing. Her repeated unsuccessful legal challenges in
state and federal court demonstrate her intent to harass both opposing litigants
and the courts. The fact that McCann is trained in the law, makes her litigation
conduct even more un-excusable. McCann is well aware that it is improper for
lawyers to repeatedly assert claims that are unsupported in fact and in law.
4.

Adequacy of Sanctions Other than a Pre-Filing Order

The Court has determined that a pre-filing order is the only sanction that
will protect the Court and the parties from further vexatious, harassing and
duplicative lawsuits by McCann. McCann’s track record in state court shows that
she will continue to file frivolous and harassing lawsuits until an order is entered
that restricts her ability to file further lawsuits.
CONCLUSION
The deficiencies in McCann’s Complaint cannot be cured by amendment.
An order dismissing all of McCann’s claims with prejudice is appropriate.
Accordingly, IT IS HEREBY RECOMMENDED:
1.

Defendants’ Motions to Dismiss (Docs. 2, 10, 15, 31, 33,40, 43)

should be GRANTED.
-29-

2,.___AlLofMcCann’s.ciaiimshouid_be_DISMISSED_with,prejudice.
3.

Defendants5 Motions to Declare McCann a vexatious litigant

(Docs. 2-1, 15-1, 31-1,33-1, 43-1) should be GRANTED.
4.

The District Court should enter a pre-filing order limiting McCann’s

litigation activities in this Court as follows:

5.

a.

McCann should be barred from filing any further actions in
this Court arising from, or related to conduct described in the
Complaint filed in this lawsuit; and

b.

McCann should be barred from challenging the jurisdictional
authority, validity or enforceability of any prior federal or state
decision in any case in which McCann has been legal counsel
or a party.

The District Court should inform the Clerk that if McCann attempts

to file any further lawsuits with this Court, the Clerk should lodge McCann’s
pleadings in a miscellaneous civil case entitled In re Genet McCann until the
District Court determines whether the action should be allowed to proceed.
NOTICE OF RIGHT TO OBJECT TO FINDINGS AND
RECOMMENDATIONS AND CONSEQUENCES OF
FAILURE TO OBJECT
The parties may serve and file written objections to the Findings and
Recommendations within 14 days of their entry, as indicated on the Notice of
Electronic Filing. 28 U.S.C. § 636(b)(1). A district court judge will make a de

-30-

novo determination regarding any portion of the Findings and Recommendations
to which objection is made. The district court judge may accept, reject, or
modify, in whole or in part, the Findings and Recommendations. Failure to
timely file written objections may bar a de novo determination by the district
court judge.
DATED this 24th day of April, 2019.

------^

JrjtmTohnston
United States Magistrate Judge

-31-

Case: 19-35730, 04/23/2020, ID: 11670421, DktEntry: 12-1, Page 35 of 60

ER 2
FINAL JUDGMENT
(Dkt. 77)

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION
GENET McCANN,
Plaintiff,

CV 18-115-GF-BMM-JTJ

vs.
WARD TALEFF, et al„

ORDER

Defendants.

BACKGROUND
Plaintiff Genet McCann (“McCann”) alleges that three of her siblings
conspired to exert unlawful control over cash that belongs to family-owned
corporations. This underlying dispute has led to extensive litigation in Montana
state courts. McCann’s efforts in the Montana state court litigation have resulted in
judgments against her. The Montana Supreme Court has disbarred McCann as a
lawyer, declared McCann a vexatious litigant, and prohibited McCann from filing
any further lawsuits in state court without prior approval.
McCann filed the present lawsuit as an effort to continue to litigate the
family dispute in federal court. The named Defendants include the following
parties: the state district court judge who presided over the guardianship and
1

da§§Qt:I^dc\MM£t7Dlf^^7/>&AsP^^2^£8

conservatorship-proceeding.for-McCann!smotber;.th-e-Statedistactjudge,sjiidicial
assistant; the lawyers appointed by the Montana state court to serve as guardian
and conservator for McCann’s mother; the lawyers who participated in the
Montana state disciplinary proceedings that resulted in McCann’s disbarment as a
lawyer; and the lawyers who opposed McCann’s efforts in Montana state court to
dissolve the family-owned corporations.
The Court today addresses Defendants’ motion to dismiss and Defendants’
motion that seeks an order declaring McCann a vexatious litigant in this Court.
Magistrate Judge John Johnston conducted a hearing on these two motions on
March 12, 2019. Judge Johnston issued Findings and Recommendations on April
24,2019. Judge Johnston determined that McCann’s Complaint could not be cured
by an amendment. Judge Johnston recommended that all of McCann’s claims be
dismissed with prejudice. Judge Johnston further recommended that McCann be
declared a vexatious litigant in federal court. McCann timely filed her objections to
Judge Johnston’s Findings and Recommendations on June 5, 2019. (Doc. 71.)
DISCUSSION
McCann sets forth the following six objections: McCann argues that (1)
Judge Johnston violated McCann’s First and Fifth Amendment rights to
meaningful access and opportunity to be heard on her claims in federal court; (2)
2

Judge Johnston abused his discretion-in-taking-judicial-notice of-the factual-recitals
in the 10 orders from Montana state courts; (3) Judge Johnston erred in law in not
giving notice per Rule 12(b) and the opportunity to respond regarding judicial
notice of the 10 orders from Montana state courts; (4) Judge Johnston violated
McCann’s First and Fifth Amendment rights to access the federal court by denying
McCann a meaningful opportunity to be heard at the hearing; (5) Judge Johnston
abused his discretion by concluding that am endment of McCann ’s complaint
would be futile; and (6) Judge Johnston erred in recommending that McCann be
declared a vexatious litigant.
The Court reviews de novo Findings and Recommendations to which a party
timely objected. 28 U.S.C. § 636(b)(1). The Court reviews for clear error the
portions of the Findings and Recommendations to which a party did not
specifically object .McDonnell Douglas Corp. v. Commodore Bus. Mach., Inc., 656
F.2d 1309,1313 (9th Cir. 1981). Where a party’s objections constitute perfunctory
responses argued in an attempt to engage the district court in a re-argument of the
same arguments set forth in the original response, however, the Court will review
for clear error the applicable portions of the Findings and Recommendations.
Roslingv. Kirkegard, 2014 WL 693315 *3 (D. Mont. Feb. 21, 2014) (internal
citations omitted).
3

i®ibfcW6M2fr Defeato7/iiyl0R?9^§^fete
A. Judicial Notice
Judge Johnston did not err in taking judicial notice of the underlying
Montana state court cases. Defendants assert that the doctrines of res judicata and
the Rooker-Feldman doctrine apply. Those doctrines required Judge Johnston to
look at prior proceedings in the Montana state courts to determine whether
McCann’s claims must be precluded. Judge Johnston did not err in taking judicial
notice of McCann’s Montana state court cases to determine whether res judicata
and the Rooker-Feldman doctrines applied to McCann’s claims.
B. Motions to Dismiss
Defendants moved to dismiss all of McCann’s claims under Rule 12(b)(1)
and Rule 12(b)(6). Fed. R. Civ. P. 12(b)(1) authorizes a court to dismiss claims
over which it lacks subject matter jurisdiction. Safe Airfor Everyone v. Meyer, 373
F.3d 1035,1039 (9th Cir. 2004). A motion to dismiss pursuant to Rule 12(b)(6)
tests the legal sufficiency of a complaint. Navarro v. Block, 250 F.3d 729,732 (9th
Cir. 2001). A plausible claim exists when “the plaintiff pleads factual content that
allows the court to draw reasonable inference that the defendant is liable for the
misconduct alleged.” Id. at 678.
1. Claims Against Sheila McCann, Paul McCann, Jr., William
McCann, Mark Parker, and Guy Rogers.

4

------McCann asserts claims formonetaiy. relief against her siblingsSheila, Paul___
Jr. and William, and attorneys Parker and Rogers. Defendants assert that the
doctrine of res judicata bars all of McCann’s claims. The doctrine of res judicata
bars a party from re-litigating claims that could have been brought in a prior action.
Owens v. Kaiser Foundation Health Plan, Inc., 244 F.3d 708, 713 (9th Cir. 2001).
The doctrine of res judicata deters “plaintiffs from splitting a single cause of
action into more than one lawsuit.” Asarco LLC v. Atlantic Richfield Co., 369 P.3d
1019,1023 (Mont. 2016). Montana law sets forth five elements that must be met
under the doctrine of res judicata: (1) the parties or their privies must be the same
in the first and second actions; (2) the subject matter of the actions must be the
same; (3) the issues must be the same in both actions, or they must be issues that
could have been raised in the first action, and they must relate to the same subject
matter; (4) the capacities of the parties in both actions must be the same in
reference to the subject matter and the issues raised in the actions; and (5) the first
action must have ended with a final judgment on the merits. Brilz v. Metropolitan
General Ins. Co., 285 P.3d 494, 501 (Mont. 2012).
Judge Johnston correctly determined that Defendants met each element of
res judicata. Judge Johnston first reasoned that each Defendant in this lawsuit
represent either parties in McCann 10 or are privies with persons or entities in
5

McCann-10.- Judge Johnston next determined that both cases involve the same
subject matter as both cases arise from the same McCann family dispute.
Third, Judge Johnston concluded that both McCann 10 and this action arise
out of “a common nucleus of operative facts.” See Ziolkowski v. Johnson
Rodenburg & Lauinger, PLLP, 2013 WL 1291615, at *7 (D. Mont. Mar. 27,
2013). As in McCann 10, McCann seeks a forced dissolution of the family
corporations. Res judicata further bars McCann’s alleged RICO claims that she did
not raise in McCann 10 because they arise from the same common nucleus of
operative facts. McCann could have brought these claims in McCann 10.
Fourth, McCann alleges claims against the Defendants in both their
individual and official capacities in this case and in McCann 10. McCann asserts
these claims in her capacity as a shareholder of the family corporations in this case
and in McCann 10. The capacities of the parties prove identical between the
current action and McCann 10.
And lastly, Defendants satisfy the final element of res judicata because
McCann 10 concluded with a final judgment on the merits entered by the Montana
District Court. The Montana Supreme Court affirmed the judgment. McCann v.
McCann, 425 P.3d at 694. Judge Johnston correctly determined that the doctrine of
6

resjudicata-barsMcGann’sclaimsagainst-Sheila^Paul-Jr—and-WilliamMcGannr
and attorneys Parker and Rogers.
2. Claims Against Cotter, Moog, Taleff and Axelberg
McCann asserts claims for monetary relief against Defendants Cotter, Moog,
Taleff and Axelberg. McCann bases these claims upon the proceedings that
resulted in her disbarment as a lawyer. McCann alleges misconduct against Cotter,
Moog, Taleff and Axelberg in both their official and individual capacities.
a. Official-Capacity Claims
Defendants Cotter and Moog work for the Office of Disciplinary Counsel
(“ODC”). Defendants Taleff and Axelberg serve on the Commission on Practice.
The ODC and the Commission on Practice operate as agencies of the State of
Montana. See Rothstein v. Montana State Supreme Court, 638 F. Supp. 1311,1312
(D. Mont. 1986). McCann’s claims against Cotter, Moog, Taleff and Axelberg, in
their official capacities, constitute claims against the State of Montana. Shaw v.
State of Cal. Dept, ofAlcoholic Beverage Control, 788 F.2d 600, 604 (9th Cir.
1986).
The Eleventh Amendment bars a plaintiff from suing a state in federal court
for monetary damages. Hirsh v. Justices of the Supreme Court of California, 61
7

daHSi:

1

1D WfeB W/jM-sP

F:3d 708—715 (9th-Cir.4995):4F-hisbar-extends to official-eapaoity-claims against
agents of a state. Id. Judge Johnston correctly determined that The Eleventh
Amendment bars McCann’s official-capacity claims against Defendants Cotter,
Moog, Taleff and Axelberg.
b. Individual-Capacity Claims
Individual-capacity claims for monetary damages “seek to impose personal
liability upon a government official for actions he takes under color of state law.”
Community House, Inc. v. City ofBoise, Idaho, 623 F.3d 945, 966 (9th Cir. 2010).
The claims against Cotter, Moog, Taleff and Axelberg arise from acts that they
undertook in the performance of their disciplinary proceeding duties. Cotter and
Moog served as prosecutorial counsel for ODC. Taleff and Axelberg served as
Chairpersons of the Commission on Practice that recommended McCann’s
disbarment.
Administrative law judges and attorneys who serve in disciplinary
proceedings possess quasi-judicial immunity from individual capacity claims based
on their actions in disciplinary proceedings. Hirsh, 67 F.3d at 715; Clark v. State of
Washington, 366 F.2d 678,681 (9th Cir. 1966). Cotter, Moog, Taleff and Axelberg
retain quasi-judicial immunity from McCann’s individual capacity claims based on
8

<OasB4:ia>^^l»gWBP3ftj >

S>tMs

their-actionsinthe disciplinary-proceedings-against-McCann.-/fr>Is7?,-67-F.3d-at
715.
1. Claims Against Judge Manley and Wold-McCauley
McCann asserts claims for monetary relief against Montana state court Judge
Manley, and Wold-McCauley - Judge Manley’s Judicial assistant. Judges possess
absolute immunity from damage liability for judicial acts performed within the
jurisdiction of their court. Ashelman v. Pope, 793 F.2d 1072,1075 (9th Cir. 1986).
An action may strip a judge of judicial immunity in limited circumstances: (1)
when the judge acts in the clear absence of all jurisdiction; or (2) the judge
performs an act that is not judicial in nature. Id.
Judge Manley retained jurisdiction to preside over Paul McCann Sr.’s probate,
and Ann Marie McCann’s guardianship and conservatorship proceedings. Judge
Manley’s actions, of which McCann complains, prove judicial in nature. Judge
Johnston correctly determined that Judge Manley retains judicial immunity from
liability for his judicial acts performed within the jurisdiction of his court.
Ashelman, 793 F.2d at 1075.
McCann’s claims against Wold-McCauley prove similarly barred. Court
personnel enjoy quasi-judicial immunity for acts “integral to the judicial process.”
9

CfiftB*D^WO7/i9/l9p?^45L0f(^QL8
-See Mullis-v-U-.S-Bankruptcy Court, Dist.-OfNevada, &2&-F.2d 1385, 1390-(9thCir. 1987). McCann fails to identify any act by Wold-McCauley that does not
stand “integral to the judicial process.” Judge Johnston correctly determined that
Wold-McCauley possesses quasi-judicial immunity. Mullis, 828 F.2d at 1390.
2. Claims Against Casey Emerson
McCann asserts claims for monetary relief against Casey Emerson - Ann
Marie McCann’s court-appointed guardian. McCann alleges liability against
Emerson involvement in allowing Ann Marie to travel to California on January 6,
2015. McCann alleges that Emerson allowed Ann Marie to travel to California on
that date even though Emerson knew that the Montana state court had scheduled a
hearing related to Ann Marie’s guardianship for January 7, 2015.
Court-appointed guardians perform quasi-judicial functions. See e.g., Smith
v. DSHS, 2010 WL 4483531, at *2 (W.D. Wash. Sept. 28,2010). Court-appointed
guardians possess immunity for their quasi-judicial functions. Id. Emerson retained
judicial immunity when she acted as Ann Marie’s guardian pursuant to a court
order. Emerson functioned as an arm of the court when she allowed Ann Marie to
travel to California.

10

c6§§<3:llfcdfc1iWft1#7DWfetfW/^/leP^i^af(SPL8
- ----- The doctrine of collateral estoppel further bars McCann’s claimsregarding .
Emerson’s decision to allow Ann Marie to travel to California. Collateral estoppel
bars a party from re-litigating issues that a plaintiff raised or could have raised in a
prior action. Baltrusch v. Baltmsch, 130 P.3d 1267,1274 (Mont. 2006). The
parties fully litigated in the Montana state court guardianship proceedings
Emerson’s decision to allow Ann Marie to travel to California. The Montana state
district court determined that the hearing did not require Ann Marie’s presence.
McCann possessed a full opportunity to challenge the ruling of the Montana state
district court. The doctrine of collateral estoppel bars the claims against Emerson.
Baltrusch, 130 P.3d at 1274.
3. Claims Against Amanda James
McCann asserts claims for monetary relief against Amanda James. Emerson,
Ann Marie’s court-appointed guardian, hired James as Ann Marie’s care giver.
McCann alleges liability against James for traveling to California on January 6,
2015, with Ann Marie as her care giver. The doctrine of collateral estoppel bars
claims against James for the same reasons regarding Emerson. Baltrusch, 130 P.3d
at 1274.

11

C&a$<4:: Mi&m®.Dtf§at0?/iM9p^g7l2fc§0l.8
4. Claims Against Doug Wold
McCann asserts claims for monetary relief against Wold. McCann alleges
liability against Wold based on his conduct as a co-conservator. Court-appointed
conservators possess quasi-judicial immunity for actions performed at the direction
of the court. Mosher v. Saalfeld, 589 F.2d 438,442 (9th Cir. 1978). Wold
possesses immunity as a court-appointed co-conservator. Mosher, 589 F.2d at 442.
5. Claims for Injunctive Relief
McCann asserts the following three claims for injunctive relief: (1) an order
directing the Commission on Practice to reinstate her license to practice law; (2) an
order terminating the guardianship and conservatorship appointments made by the
Montana state court; and (3) an order dissolving the family corporations.
Defendants counter that the Rooker-Feldman doctrine bars McCann’s claims for
injunctive relief.
The Rooker-Feldman doctrine provides that federal district courts possess no
jurisdiction to review final judgments of a state court. District of Columbia Court
ofAppeals v. Feldman, 460 U.S. 462 (1983). The Rooker-Feldman doctrine
requires that the following four elements be satisfied: (1) the plaintiff must have
lost in the underlying state court proceeding; (2) a final judgment must have been
12

CS§§@f:

Dl®

<§°L8

-rendered in-the state-court proceeding-before-the-federal-lawsuit-was-filed; (3) the
plaintiff must complaint that the state court judgment has caused her to suffer
injuries; and (4) the plaintiff s complaint must invite the federal court to review
and reject the final judgment of the state court. ExxonMobil Corp. v. Saudi Basic
Indus. Corp., 544 U.S. 280,284 (2005).
Judge Johnston correctly determined that Defendants satisfy all four of the
Rooker-Feldman criteria. McCann lost in the Montana state court guardianship
proceedings. See In re Guardianship ofA.M.M. 356 P.3d at 481; In re
Guardianship of A.M.M. 380 P.3d at 738-746. McCann further lost in the Montana
state disbarment proceeding and the lawsuit referred to as McCann 10. Second, the
Montana state courts entered final judgments in all Montana state court
proceedings before McCann filed her Complaint in the instant case. McCann next
alleges that she suffered injuries as a result of the adverse decisions that she
received in the Montana state court proceedings. Finally, the court would be forced
to reject the final decisions of the Montana Supreme Court in order to grant
McCann the equitable relief that she seeks. Judge Johnston correctly concluded
that Defendants satisfied each element of the Rooker-Feldman doctrine. Exxon
Mobil Corp., 544 U.S. at 284. The Rooker-Feldman doctrine bars McCann’s
claims for injunctive relief.
13

C§^6*::d&T^mi©4$3lWlQl IBfotlMHPfr VttMWfeMQp^&Ltf$Pl8

A. .Motion Requesting that McCami-beJDeclared-a-Vexatious.Litigant
Defendants move for an order declaring McCann a vexatious litigant. Every
citizen possesses a right to access the courts under the First Amendment to the
United States Constitution. Christopher v. Harbury, 536 U.S. 403,415 (2002).
Litigants may not abuse the judicial system, however, by filing numerous actions
that prove frivolous or reflect a pattern of harassment. De Long v. Hennessey, 912
F.2d 1144,1148 (9th Cir. 1990).
District courts possess the authority to stop abusive litigation by vexatious
litigants by entering “pre-filing orders” that restrict the litigant’s ability to file
further lawsuits. Molski v. Evergreen Dynasty Corp,, 500 F.3d 1047,1057 (9th Cir.
2007). The district court must take the following steps to enter a pre-filing order:
(1) give the litigant notice and opportunity to be heard; (2) compile an adequate
record for appellate review; (3) make substantive findings about the frivolous or
harassing nature of the litigant’s litigation history; and (4) tailor the order in a way
that fits “the specific vice encountered.” Ringgold-Lockhart v. County ofLos
Angeles, 761 F.3d 1057,1062 (9th Cir. 2014).
Judge Johnston correctly evaluated the four pre-filing order factors. Judge
Johnston provided McCann with the required notice and opportunity to be heard.
14

Judge Johnston advised McCann of his intent to consider whether she constituted a
vexatious litigant on January 29, 2019. (Doc. 53.) Judge Johnston informed
McCann that it would conduct a hearing on March 12, 2019. McCann filed a brief
and presented oral argument at the hearing. (Docs. 36,62.) Judge Johnston
correctly determined that Defendants satisfied the first factor. Ringgold-Lockhart,
761 F.3d at 1062.
The Court set forth an adequate record for review on appeal by identifying
the prior litigation that warranted the pre-filing order. See Molski, 500 F.3d at
1059. McCann’s history of litigation includes ten proceedings filed in both
Montana state court and federal court. These proceedings, known as McCann 1
through McCann 10, constitute vexatious, harassing, and duplicative proceedings.
Molski, 500 F.3d at 1057. Judge Johnston correctly determined that Defendants
satisfied the second element. Ringgold-Lockhart, 761 F.3d at 1062.
The main factor to be considered in the vexatious litigant analysis requires
“substantive findings as to the frivolous or harassing nature of the litigant’s
actions.” Molski, 500 F.3d at 1059. Judge Johnston reasoned that McCann’s
litigation history includes both frivolous and duplicative litigation. Judge Johnston
determined that the litigation history includes three appeals related to Arm Marie’s
guardianship and conservatorship proceedings, four frivolous attempts to challenge
15

It&oHMtfftly Dft^7/^/lgp3^1l$f<§°L8

her-disbarment in-federal court, and-two lawsuits against the Montana-Supreme----Court. Judge Johnston correctly determined that McCann seeks to litigate issues
that the parties have resolved, or could have resolved, in McCann 10. McCann’s
litigation conduct has caused needless expense to the parties, and unnecessary
burden on the Court. Judge Johnston correctly concluded that McCann’s
allegations of a criminal enterprise that involves a sitting Montana district court
judge, quasi-judicial officials, and well-respected lawyers proves patently frivolous
and harassing. McCann’s challenges did not succeed in state or federal court.
McCann possesses training in the law. McCann should understand that the repeated
assertion of unsupported claims in fact prove unjustifiable. McCann’s conduct
demonstrates clear frivolous litigation and harassment. Ringgold-Lockhart, 761
F.3d at 1062.
Judge Johnston correctly determined under the fourth factor that a pre-filing
order constitutes the only sanction that will protect the Court and the parties from
further vexatious, harassing, and duplicative lawsuits from McCann. McCann’s
conduct in state court demonstrates that she will continue to file frivolous and
harassing lawsuits until the Court enters an order that restricts her ability to file
further lawsuits. Molski, 500 F.3d at 1059. The Court agrees with Judge Johnston’s

16

conclusion under the fourth factor-that a pre-filing-order proves proper.-ft/>?ggo/<i—-Lockhart, 761 F.3d at 1062.
CONCLUSION AND ORDER
The deficiencies in McCann’s Complaint cannot be cured by amendment.
An order dismissing all of McCann’s claims with prejudice proves appropriate.
ACCORDINGLY, IT IS ORDERED:
1.

Defendants’ Motions to Dismiss (Docs. 2,10,15, 31,33, 40,43) are

GRANTED.
2.

All of McCann’s claims are DISMISSED with prejudice.

3.

Defendants’ Motions to declare McCann a vexatious litigant (Docs. 2-

1,15-1, 33-1, 43-1) are GRANTED.
4.

A pre-filing order shall be entered limiting McCann’s litigation

activities in this Court as follows:
a.

McCann is barred from filing any further actions in this Court

arising from, or related to conduct described in the Complaint filed in
this lawsuit; and
b.

McCann is barred from challenging the jurisdictional authority,

validity or enforceability of any prior federal or state decision in any
case in which McCann has been legal counsel or a party.
17

©oddfiifttfv.
5.

Pp9§£$g>fM8

The Clerk of Court shall be informed that if McCann attempts to file

any further lawsuits with this Court, the Clerk of Court shall lodge McCann’s
pleadings in a miscellaneous civil case entitled In re Genet McCann until the Court
determines whether the action should be allowed to proceed.
DATED this 23rd day of July, 2019.

Brian Morris
United States District Court Judge

18

Case: 19-35730, 04/23/2020, ID: 11670421, DktEntry: 12-1, Page 54 of 60

ER3
POST-JUDGMENT ORDER
(Dkt. 84)

Case: 19-35730, 04/23/2020, ID: 11670421, DktEntry: 12-1, Page 55 of 60

ER3
POST-JUDGMENT ORDER
(Dkt. 84)

IN-THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION
GENET MCCANN
Plaintiff,

CV 18-115-GF-BMM

vs.
WARD TALEFF, ET AL„

ORDER

Defendants.

This Court previously dismissed with prejudice all of Plaintiff Genet
McCann’s (McCann) claims. (Doc. 77 at 17.) McCann timely filed a notice of
appeal of that decision on August 26,2019. (Doc. 81.) McCann also filed two
separate motions in this Court under Federal Rules of Civil Procedure 60(b)(4) and
15 to set aside the previous dismissal and grant her leave to file a first amended
complaint. (Doc. 79 and Doc. 82.)
“The filing of a notice of appeal... confers jurisdiction on the court of
appeals and divests the district court of its control over those aspects of the case
involved in the appeal.” Griggs v. Provident Consumer Discount Co., 459 U.S. 56,
58 (1982) (per curiam); Townley v. Miller, 693 F.3d 1041,1042 (9th Cir. 2012)
(holding that under Griggs the appellate court has jurisdiction over appeals from a
1

district court order); BNSF-Ry. Co. v. Feit, No. 10-cv-54, No. ll-cv-01, 2014 WL
12769807, at *1 (D. Mont. Apr. 2, 2014) (same). McCann’s Notice of Appeal
divests this court of jurisdiction over her Rule 60 motion because the motion
involves the same issues now on appeal.
ORDER
Accordingly, IT IS ORDERED that McCann’s Rule 60 Motion to Set
Aside Judgment and Request Leave to Amend (Doc. 79) and McCann’s Rule 60
Motion to Set Aside Judgment and Request Leave to Amend (Doc. 82) are
DENIED, subject to renewal following the Ninth Circuit Court of Appeals’
decision on the pending appeal.
DATED this 28th day of August 2019.

Brian Morris
United States District Court fudge

2

IN-THEUNITEDSTATESDISTRIGTGGIJRT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION

(r

L

GENET MCCANN
Plaintiff,

CV 18-115-GF-BMM

vs.
WARD TALEFF, ET AL.,

ORDER

Defendants.

This Court previously dismissed with prejudice all of Plaintiff Genet
McCann’s (McCann) claims. (Doc. 77 at 17.) McCann timely filed a notice of
appeal of that decision on August 26,2019. (Doc. 81.) McCann also filed two
separate motions in this Court under Federal Rules of Civil Procedure 60(b)(4) and
15 to set aside the previous dismissal and grant her leave to file a first amended
complaint. (Doc. 79 and Doc. 82.)
“The filing of a notice of appeal... confers jurisdiction on the court of
appeals and divests the district court of its control over those aspects of the case
involved in the appeal.” Griggs v. Provident Consumer Discount Co., 459 U.S. 56,
58 (1982) (per curiam); Townley v. Miller, 693 F.3d 1041,1042 (9th Cir. 2012)
(holding that under Griggs the appellate court has jurisdiction over appeals from a
1

*

Case: 19-35730, 04/23/2020, ID: 11670421, DktEntry: 12-1, Page 60 of 60

Additional material
from this filing is
available in the
Clerk's Office.

